Q@OCKLE

Legal Briefs

2311 Douglas Street

E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-645
STATE OF ARIZONA,
Petitioner,
v.
HECTOR SEBASTION NUNEZ-DIAZ,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 19th day of December, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF AMICUS CURIAE LANDMARK LEGAL
FOUNDATION IN SUPPORT OF PETITIONER in the above entitled case. All parties required to be served have been
served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
MICHAEL J. O’NEILL. RICHARD P. HUTCHISON
Counsel of Record LANDMARK LEGAL
MATTHEW C. FORYS FOUNDATION
LANDMARK LEGAL 3100 Broadway
FOUNDATION Suite 1210
19415 Deerfield Ave. Kansas City, MO 64111
Suite 312 816-931-5559
Leesburg, VA 20176
703-554-6100 Attorneys for Amicus Curiae
703-554-6119 (Facsimile)
mike@landmarklegal.org

Subscribed and sworn to before me this 19th day of December, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary : \
State of Nebraska — SL ‘

My Commission Expires Nov 24, 2020
Notary Public Affiant

 

 

39160
 

Attorneys for Petitioner

Drew Curtis Ensign Office of the Attorney General
Counsel of Record 2005 N. Central Avenue
Phoenix, AZ 85004

drew.ensign@azag.gov

Party name: State of Arizona

(602) 542-5252

 

 

Attorneys for Respondent

Michael B. Kimberly McDermott Will & Emery
Counsel of Record 500 North Capitol Street NW
Washington, DC 20001

mkimberly@mwe.com

Party name: Hector Nunez-Diaz

 

(202) 756-8901

 
